U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Alfred Procopio, Jr. v. Robert Wilkie, secretary of Veterans
No. 19-819

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
24, 2019, and placed on the docket on December 31, 2019. The government's response is due on
January 30, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 2, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-08 19
PROCOPIO, ALFRED, JR.
ROBERT WILKJE, SECRETARY OF VETERANS

JOHN B. WELLS
769 ROBERT BLVD.
SUITE 201 D
SLIDELL, LA 70458
985-641-1855
JOHNLAWESQ@MSN.COM

